F03-W740-3

STATE FARM BANK®
CREDIT CARD AGREEMENT AND
DISCLOSURE STATEMENT
This document and the table of Account-Opening
Disclosures and other information printed on the card
carrier that accompanies this document make up your
credit card agreement with State Farm Bank. They are
referred to together throughout this document as the
Agreement. They contain important terms and disclosures
regarding your credit card account. Please read them
carefully and keep them for future reference. You will be
bound by the terms of the Agreement unless you cancel
your account within 30 days after you receive your credit
card and before you or someone you have authorized uses
your credit card or credit card account.
The Parties to this Agreement
In this Credit Card Agreement and Account Disclosures (this “Agreement”),
the words “you” and “your” refer to each person who requests that we
establish a credit card account (the “Account”) and issue a Visa® credit
card (a “Card”) to that person or for use by another person. If two or more
persons request that we issue credit cards on the same card Account,
the words “you” and “your” mean each and either of those persons,
individually, and also all of those persons, jointly and severally. The words
“we”, “us”, “our” and “State Farm Bank” mean State Farm Bank, F.S.B.,
a federal savings bank located in Bloomington, Illinois. Definitions of
additional terms are contained in other paragraphs of this Agreement.
Your Acceptance of the Terms of this Agreement
If you apply for a Card from us, or use a Card we issue to you, or use
the account number associated with the Card, or if another person uses
the Card or account number with your authorization, you will be deemed
to have accepted and agreed to all of the terms and conditions of this
Agreement.
If you do not wish to be bound by the terms and conditions of this
Agreement, do not use the Card or authorize another person to use it.
Instead, cut all of the Cards in two and return them to us within 30 days
after you receive them.
How to Use Your Card
Subject to the terms of this Agreement, we will make loans to you at our
offices in Bloomington, Illinois when you use your Card (which term as
used in this Agreement includes use of the account number associated
with your Card) as follows:
(a) Purchases. You may use your Card to purchase or lease goods
or services (“Purchases”) from merchants who honor Visa credit
cards. Quasi-cash transactions, described below, are deemed to be
Cash Advances and not Purchases.
(b) Cash Advances.
(1) You may use your Card to obtain a Cash Advance at most banks
that display the Visa logo.
(2) You may use your Card, in conjunction with the personal
identification number (“PIN”) we will issue to you, to obtain a
Cash Advance at automated teller machines (“ATMs”) that bear
the Plus® logo. The operator of the ATM may add a surcharge
to the amount of the Cash Advance you request. If so, the
surcharge will be part of the Cash Advance charged to your
Account.
(3) You may use your Card to establish overdraft protection on a
checking account if permitted by your financial institution. You
obtain a Cash Advance each time your Card is used to fund
such an overdraft.
(4) We may send you blank forms of convenience checks or cash
advance checks (“Convenience Checks” or “Checks”) from
time to time. If we do, you may use a Check to obtain a Cash
Advance by signing and completing the Check in accordance
with the terms on the Check and any written materials that
accompany it. You obtain a Cash Advance each time you use a
Check and we pay it when it is presented to us, including when
you use a Check to purchase or lease goods or services.
(5) You may obtain a Cash Advance when you use your Card
for items that are convertible to cash or similar cash-like
transactions that we may designate from time to time, including
wire transfer money orders, other money orders, travelers
checks, or foreign currency or tax payments (so-called “quasicash” transactions). However, your Card may not be used to
obtain, and we will not honor requests for, a Cash Advance in
the form of casino chips, bets or wagers, gaming transactions
(including Internet gambling), lottery tickets or the like.
(6) Certain establishments may cash your personal checks upon
presentment of your Card. In the event we are required to pay the
amount of a check cashed in this manner because your check is
not paid for any reason, we may charge your Account for a Cash
Advance in the amount of the check and any processing charge
we incur.
(c) Balance Transfers. You may use your Account to transfer balances
from other accounts to your Account with us (a “Balance Transfer”).
You may request a balance transfer by completing the balance
transfer portion of the credit application, by completing and returning
to us one of the balance transfer requests forms we may send you
from time to time, by writing a Balance Transfer check we may
send you or by writing or telephoning us. When you request a
balance transfer, we will write our check or transfer funds to your
other creditor. The amount of our check or funds transfer will be
the amount of your Balance Transfer. Balance Transfers are treated
as Purchases rather than Cash Advances for most purposes under
this Agreement. However, interest charges may begin to accrue as
of the date a balance transfer is posted to your Account. Balance
Transfer transactions will not be processed if made payable to cash,
to you, to any individual, to a deposit account, or to a State Farm
Bank credit card account. If such a Balance Transfer is processed,
State Farm Bank reserves the right to convert the transaction to a
Cash Advance.
Credit Limit
We will establish a credit limit for your Account from time to time. Your
initial credit limit is shown on the card carrier. Your current credit limit will
be shown on each monthly statement of your Account. The total amount
of credit outstanding on your Account at any time must not be more
than your then current credit limit. We may also establish at any time a
separate credit limit (as a sub-limit within the overall credit limit for your
Account) for Cash Advances. If we do, your outstanding Cash Advances
balance of your Account must not exceed the Cash Advances credit limit
at any time. We may set similar separate sub-limits for other portions of
your Account balance. We may change your credit limit or sub-limits from
time to time. We will attempt to notify you if we do, but the change may
be effective before you receive notice.
Exceeding Your Credit Limit
If you request credit in any form which, if granted, would cause either
your total outstanding balance or your Cash Advances balance or other
applicable sub-limit (including, in either case, transactions authorized but
not yet posted to your Account) to exceed your credit limit, your Cash
Advances credit limit, or any other credit sub-limit we establish for your
Account, whether or not those balances were more than the respective
credit limits before the request, we may, refuse to honor the request or in
our sole discretion, we may honor the request and extend the credit. If we
extend the credit, you will not be charged an over-the-credit limit fee, and
you agree to repay the credit and the interest and other charges on it as
part of the balance of your Account in accordance with the terms of this
Agreement. We may extend credit that exceeds any credit limit applicable
to your Account on one or more occasions without waiving our rights. If
we previously honored requests for credit in excess of your credit limit,
that does not mean we will or must honor further over-limit requests. If
we refuse to honor a Check or Balance Transfer request, we may advise
the person presenting the Check or Balance Transfer that credit has been
refused or that there are insufficient funds to pay the Check or Balance
Transfer.
Interest Charges
When Interest Begins to Accrue:
(a) Interest on Purchases. Except as provided in paragraph (b) below,
interest on each Purchase (including a Balance Transfer) will accrue
daily from and including the transaction date until the date each
Purchase is completely repaid according to the payment allocation
method then in effect. If the transaction date was in an earlier billing
cycle than the posting date, interest will accrue from and including
the first day of the billing cycle in which the transaction was posted.
(b) How to Avoid Paying Interest on Purchases. You can avoid paying
interest on Purchase (other than Balance Transfers) posted to
your Account if you pay the entire New Balance of your Account
each month not later than the Payment Due Date shown on your
Account statement. If any portion of the balance of your Account
is subject to an introductory or promotional rate, to avoid paying
interest on Purchases (other than Balance Transfers) posted to your
Account during the billing cycle you must pay the entire New Balance
(including any part of the balance that is subject to the introductory
or promotional rate) shown on the statement of your Account for
that billing cycle by the Payment Due Date shown on the statement.
If you fail to pay the entire New Balance of your Account before the
Payment Due Date in any month, you can again avoid paying interest
on Purchase (other than Balance Transfers) in the manner described
above after you have paid the entire New Balance of your Account by
the Payment Due Date for two consecutive months.
(c) Interest on Cash Advances. Interest on each Cash Advance will
accrue daily from and including the transaction date until the date
each Cash Advance is completely repaid according to the payment
allocation method then in effect. The transaction date for Cash
Advances obtained by a Check is the date we process the Check.
(d) Interest that Accrues Prior to Payment in Full. Interest accrues on
the unpaid balance of your Account as described above until the date
the balance is paid in full, except to the extent paragraph (b) above
applies to Purchases posted to your Account. If you pay the entire
New Balance shown on the monthly statement of your Account by
the Payment Due Date, you will receive a statement the following
month for interest that accrued from the closing date of the previous
billing cycle until the date your payment in full was posted to your
Account, even if no new transactions are posted to your Account
after the closing date of the previous billing cycle. To minimize the
amount of this interest, pay the New Balance in full immediately upon
receipt of your monthly statement.
Periodic Rates and Annual Percentage Rates of the Interest Charge:
The periodic rates we use to compute interest on your Account and the
corresponding annual percentage rates are described below:
(a) Rate of Interest Charge on Purchases. The daily periodic rate we
use to compute the interest on all Purchases balances (including

Balance Transfers) is a variable rate which is the sum of the Prime
Rate plus a margin expressed as a percentage, divided by 365,
except as otherwise provided below for certain introductory rates
and certain promotional rates.
(1) Introductory Rate. The daily periodic rate we use to compute
interest on all Purchases or Balance Transfer offers is the
introductory rate shown on the card carrier. The corresponding
annual percentage rate is shown on the Account-Opening
Disclosures on the card carrier. If you abide by the terms of this
Agreement, the introductory rate will apply for the period of time
shown on the card carrier and at the end of the introductory
rate period the Preferred Pricing rate for Purchases will apply
to the remaining introductory Purchase or Balance Transfer
balances on your Account. If there is no space for disclosure
of an introductory rate on the card carrier or if a space for an
introductory rate is shown on the card carrier and is completed
with “N/A” or is blank, an introductory rate does not apply on
your Account.
(2) Preferred Pricing. The Preferred Pricing daily periodic rate
we use to compute interest on Purchases (including Balance
Transfers other than Balance Transfers that are subject to any
applicable introductory rate) is a variable rate equal to the sum
of the Prime Rate plus the margin shown on the card carrier
divided by 365. The current Preferred Pricing daily periodic rate
of interest on Purchases (including Balance Transfers) is shown
on your card carrier and the corresponding annual percentage
rate of interest is shown in the Account-Opening Disclosures on
the card carrier.
(3) Promotional Rates. From time to time we may offer you certain
promotional interest rates for certain types of transactions
or certain parts of your Account balance. If you qualify for
and accept the offer, the daily periodic interest rate of the
promotional rate and the corresponding annual percentage
rate will apply to the balance or portion of the balance of your
Account in accordance with the terms of the promotional rate
offer. At the end of the promotional rate period, Preferred Pricing
for Purchases will apply to your Account.
(b) Rates of Interest on Cash Advances. The daily periodic rate we
use to compute the interest on all Cash Advances is a variable rate
which is the sum of the Prime Rate plus a margin expressed as a
percentage, divided by 365.
(1) Preferred Pricing. The daily periodic rate we use to compute
the interest on Cash Advances balances is a variable rate equal
to the sum of the Prime Rate plus the margin shown on the
card carrier divided by 365. The current Preferred Pricing daily
periodic rate of interest on Cash Advances is shown on the
card carrier, and the corresponding annual percentage rate of
interest is shown in the Account-Opening Disclosures on the
card carrier.
(c) Variable Rates of the Interest: The Interest rates under
subparagraphs (a) and (b) above, other than any applicable
introductory rate on balance transfers or Purchases are variable
rates based on the Prime Rate published in the “Money Rates” table
in The Wall Street Journal. The interest rates and the corresponding
annual percentage rates of interest charged under this Agreement
may increase if the Prime Rate increases. The effect of an increase
in the Prime Rate will be an increase in the amount of the Minimum
Payment due under this Agreement. We will calculate the interest
rates applicable to your Account every month based on the Prime
Rate published in the “Money Rates” table in The Wall Street Journal
as of your statement closing date for the billing cycle. If two or
more Prime Rates are published on that day, the highest of those
rates will be used to calculate the rates of the interest under this
Agreement. If your statement closing date is a day on which The
Wall Street Journal was not published, the previous business day
on which The Wall Street Journal was published will be used. If
The Wall Street Journal ceases publication, or no longer publishes
the prime rate, or changes the manner by which its prime rate is
determined, we may select another comparable index of short-term
interest rates to be the “Prime Rate” under this Agreement. The new
annual percentage rates, and the new daily periodic interest rates
calculated by dividing the new annual percentage rates by 365, will
apply to your Account beginning as of the first day of the billing
cycle of your Account during which the new annual percentage
rates and the corresponding daily periodic rates were calculated,
and will continue to apply until new annual percentage rates and the
corresponding daily periodic rates are calculated and have become
effective in the manner described in this paragraph. The new annual
percentage rates and the corresponding new daily periodic interest
rates will apply retroactively to the first day of the billing cycle, and
transactions that occurred during the billing cycle both prior to and
after the date the new annual percentage rates were calculated will
be subject to the new annual percentage rates and the corresponding
new daily periodic interest rates for the entire billing cycle.
Calculating the Balances to which the Periodic Interest Rates
Are Applied: We calculate an “average daily balance” separately for
Purchases (including Balance Transfer, but excluding any introductory
period Balance Transfers), Cash Advances, any introductory period
Balance Transfers then in effect, and any special rate offers then in effect.
To get the “average daily balance” of your Account we take the beginning
balance of your Account each day for each of these types of transactions,
add any new Purchases (including Balance Transfers, but excluding
any introductory period Balance Transfers and introductory period
Purchases), Cash Advances, introductory period Balance Transfers and
other special rate offers (as applicable), and subtract any payments
and other credits applied to that type of transaction under the payment
allocation method then in effect. This gives us the daily balance for each
of these types of transactions. (Credit balances are treated as zero for
purposes of calculating the daily balances.) Then, we add all of the daily
balances for the billing cycle for each of these types of transactions and
divide the respective totals by the number of days in the billing cycle. This
gives us the “average daily balance” for your Account for each of these
types of transactions.
Calculating Interest and Other Finance Charges; Minimum Interest
Charge: We figure the interest on Purchases (including Balance Transfers)
and Cash Advances charged to your Account by multiplying each of the
“average daily balances” of your Account by the applicable daily periodic
rate of interest and then by the number of days in the billing cycle, and
by adding the resulting products together. We then add any transaction
fee finance charges, each calculated as provided below. If the amount of
finance charge calculated as described above is more than zero but less
than $1.50, a minimum monthly finance charge of $1.50 will be charged
to your Account. We may, at our election, waive the finance charge on
small Account balances.
Finance Charges
(a) Cash Advance Fee: If you use your Card or a Check (Convenience
Check) to obtain a Cash Advance, we will charge your Account a
Cash Advance fee equal to 5% of the U.S. dollar amount of the Cash
Advance, subject to a minimum fee of $10 for each Cash Advance.
(b) Balance Transfer Fee: If you make a Balance Transfer to your
Account, we will charge your Account a Balance Transfer fee equal
to 3% of the U.S. dollar amount of the Balance Transfer transaction,
subject to a minimum fee of $10.
(c) International Transaction Fee: If you use your Card to make
an international transaction, we will charge your Account an
International Transaction fee equal to 3% of the U.S. dollar amount
of the transaction. An international transaction is defined as any
transaction that was acquired in any country other than the United
States.
Penalty Charges:
The following fees will be charged to your Account as a Purchase in the
billing cycle in which the event occurs:
(a) a Late Payment Fee if we do not receive payment in an amount at
least equal to the Minimum Payment due shown on the monthly
statement of your Account by the Payment Due Date shown on the
statement. The amount of the Late Payment Fee will be:
(i) an amount equal to your minimum Payment Due if your
minimum Payment Due is less than $27; or
(ii) $27 if your Minimum Payment Due is $27 or more.
(b) a Returned Payment Fee if a check or draft you send us as a payment
on your Account is returned for insufficient funds or for any other
reason. The amount of the Returned Payment Fee will be:
(i) an amount equal to your minimum Payment Due if your
minimum Payment Due is less than $27; or
(ii) $27 if your Minimum Payment Due is $27 or more.
(c) a Returned Check Fee if we return a Check unpaid for any reason.
The amount of the Returned Check Fee will be:
(i) an amount equal to your minimum Payment Due if your
minimum Payment Due is less than $27; or
(ii) $27 if your Minimum Payment Due is $27 or more.
However, the amount of the Late Payment Fee, Returned Payment Fee,
and Returned Check Fee will be $38 if you also incurred the same fee
on your Account within the immediately preceding six billing cycles of
your Account.
Other Charges:
The following fees will be charged to your Account as a Purchase in the
billing cycle in which the event occurs:
(a) a Statement Reprint Fee of $5 for each copy of a monthly statement;
(b) a $15 per hour (with a $10 minimum) Account Research Fee for
account research incurred in servicing your account at your request;
and
(c) Unless prohibited by applicable law, the amount of any costs we
incur in complying with state abandoned or unclaimed property laws
with regard to your Account.
Repayment; Minimum Payment Due Each Month
You promise to pay us the amounts of all credit you obtain through the
use of your Card (including all Purchases, Balance Transfers and Cash
Advances), all transaction fees and other charges we assess against your
Account and all interest and other finance charges as provided in this
Agreement. You agree to make your payments in the amounts and at the
times provided in this Agreement. Time is of the essence.
We will provide a statement of your Account at approximately monthly
intervals if there has been activity on your Account, a finance charge is
assessed during the preceding month, or there is a balance (credit or
debit) in your Account exceeding $1, unless we deem your Account to
be uncollectible, or we have instituted delinquency collection procedures,
or we have charged off the Account, or furnishing the statement would
violate federal law. You may pay any amount up to the entire unpaid
balance (the “New Balance”) of your Account at any time. You agree
. . . CONTINUED ON REVERSE SIDE

to pay each month at least the amount of the Minimum Payment Due
shown on your monthly statement by the Payment Due date shown on
the statement. The monthly Minimum Payment Due is 1% of the New
Balance (less interest charges and Late Fees and rounded to the nearest
$5.00) + Interest Charges + Late Fees + any Past Due Amounts or
$25, whichever is the greater (or your entire New Balance if less than
$25). The Payment Due Date will be at least 24 days after the Closing
Date. If you overpay, or if a credit balance is otherwise created in your
Account, we will not pay interest on that amount. We reserve the right to
reject or return any payment if it would create a, or add to an existing,
credit balance as of the day we receive that payment. Your payments are
not deemed to be received until they are posted to your Account. See
the monthly statement of your Account for details on timely posting of
payments. Mail your payment, accompanied by the payment remittance
stub, using the envelope enclosed with your monthly statement or to
the payment address provided on the monthly statement. Or make your
payment online by going to statefarm.com. The crediting of payments
sent to any location other than the payment address or received in any
other manner may be delayed. Do not send correspondence of any
type to the payment address. When you provide a check as payment,
you authorize us either to use information from your check to make a
one-time electronic fund transfer from your Account or to process the
payment as a check transaction. When we use information from your
check to make an electronic fund transfer, the funds may be withdrawn
from your account on which the check is drawn as soon as the same day
we receive your payment and you will not receive your check back from
your financial institution. For inquiries about your account, please call
us toll-free at 877-SF4-VISA (877-734-8472) or write us at PO Box 87,
Deposit, New York 13754-0087.
Your payments will be allocated among the charges on your Account
in any manner we determine that is consistent with the requirements
of applicable law, without regard to any contrary instructions from
you If different annual percentage rates apply to different balances of
your Account, we will allocate any amount you pay in excess of the
required Minimum Payment Due first to the balance with the highest
annual percentage rate and any remaining portion to the other balances
in descending order based on the applicable annual percentage rate
in a manner that complies with applicable regulations and regulatory
guidance. Even though your payment may be credited to your Account
in the billing cycle in which the payment is received, your available credit
may not be increased by the amount of the payment until your payment
has cleared.
If you pay more than the Minimum Payment you will not thereby prepay or
postpone the due date of payments in the following months and you will
continue to be obligated to make the Minimum Payment amount (if any)
shown on your monthly statements in succeeding months.
Payments must be made in U.S. dollars, and we may refuse to accept
checks not denominated in U.S. dollars. You agree not to use a State Farm
Bank Balance Transfer, Convenience Check, or the proceeds of a Cash
Advance to make any payment on your Account.
Our Right to Require Immediate Payment
Subject to our giving any notice required by law and to any other
limitations imposed by law, you will be in default and, at our election, we
can require you; to pay immediately all amounts you owe us under this
Agreement without notice or demand if (1) you fail to pay any amount
you owe under this Agreement exactly when due; or (2) your Account
balance exceeds your credit limit, or if we have established a separate
Cash Advances credit limit or other credit sub-limit for your Account,
your Cash Advances balance exceeds your Cash Advances credit limit or
you exceed any other credit sub-limit of your Account; or (3) you fail to
abide by any other term of this Agreement; or (4) your ability to pay us is
materially impaired (including, without limitation, if you file or have filed
against you as debtor a proceeding under any chapter of the Bankruptcy
Code); or (5) you die or become incapacitated; or (6) you are in default
on any other credit account or loan you have with us.
Collection Costs
If you are in default, unless prohibited by applicable law, you agree to pay
us or reimburse us for all costs and disbursements, including reasonable
attorney’s fees, we pay or incur in legal proceedings (including
bankruptcy proceedings) to collect or enforce the debt you owe under
this Agreement.
Transactions Made in Foreign Currencies
If a transaction is made in a foreign currency, we and Visa International
will convert the transaction into a U.S. dollar amount. Visa will act in
accordance with their operating regulations or conversion procedures in
effect at the time the transaction is processed and may use (i) a rate
selected by Visa from the range of rates available in wholesale currency
markets for the applicable central processing date, which rate may vary
from the rate Visa itself receives, or (ii) the government-mandated rate in
effect for the applicable central processing date, in each instance plus or
minus any adjustment determined by Visa or us. The currency conversion
rate calculated in this matter that is in effect on the processing date may
differ from the rate in effect on the transaction date or the posting date.
When any transaction must be converted back into a foreign currency
because of a refund or other reversed transaction, the same currency
conversion formula will apply.
Billing Cycles of Your Account
Each billing cycle of your Account begins on the day after the closing date
shown on the preceding monthly statement of your Account and ends on
the closing date shown on the monthly statement of your Account for the
current month. A billing cycle occurs even if you do not receive a monthly
statement of your Account as otherwise provided in this Agreement.
Authorized Use of Your Card by Others
If you permit any person to have access to your card or Account number
with the authorization to make a charge, or if you request us to issue a
Card on your Account to another person, you will be liable for all charges
made by that person, including charges you may not have intended that
person to make.
Special Provisions Regarding Checks
You may stop payment on an unpaid Check by providing us with the
check number, dollar amount, and payee exactly as they appear on the
Check. A stop payment request expires six months after the date we
accept your stop payment order unless you renew it in writing within two
weeks prior to the expiration date.
If you post-date a Check, we may honor the Check immediately upon
presentment or return it unpaid, at our election, without in either case
waiting until the date shown on the Check. We are not liable to you for any
loss or expense incurred by you arising out of the action we elect to take.
You may not use a Check or any other Cash Advance to make a payment
under this Agreement or any other credit account you may have with us.
Certain Limitations on Use of Your Card
Your Account is a consumer credit account. You must not use your
Account primarily for business or commercial purposes, the purchase
of securities or commodities, any unlawful purpose or in any illegal
transaction.
Refusal to Honor Your Card; Refused Authorizations
We will not be liable if any other bank, any ATM, or any seller or lessor
of goods or services refuses to honor your Card or retains your Card
when you attempt to use it. Even though you have available credit on your
Account, we may fail or decline to authorize a particular transaction due
to operational difficulties or, at our discretion, for other reasons we deem
to be appropriate.
Gaming and Wagering Transactions
The State Farm Bank credit card is not to be used for any gaming or
wagering transactions, including transactions for casino chips, bets,
wagers, Internet gambling or any other gaming or wagering transaction.
State Farm Bank will decline transactions for casino chips, bets, wagers,
Internet gambling or any other gaming or wagering transaction.
Suspension or Termination of Your Account
We may suspend or terminate your right to obtain additional credit at any
time, subject only to any limitations under federal law or to the extent
federal law does not preempt state laws, under the laws of the State of
Illinois. All Cards we issue to you or at your request remain our property,
and you agree to return all such Cards to us at our request. You may
terminate your right to obtain additional credit at any time by cutting all
unexpired Cards outstanding on your Account in two and returning them
to us. Your obligations under this Agreement continue unchanged after
your right to obtain credit has been suspended or terminated by you or
by us.
Obligation of Multiple Cardholders
All joint accountholders are individually and jointly responsible for paying
the entire outstanding balance on the Account. If two or more persons are
responsible for paying any outstanding balance, we may refuse to release
any of them from liability until all of the unexpired Cards outstanding
on the Account have been returned to us and the Account balance is
paid in full. The obligations of the other obligated persons will not be
affected by the release or discharge of one or more of the persons who
are responsible for paying all or any part of the Account.
Amendments; Replacement Cards
Subject to our giving any notice required by law and to any other
limitations imposed by law, we may amend this Agreement at any time to
change, add, or delete provisions upon such notice to you and subject to
such limitations as are required and imposed under applicable provisions
of federal law or to the extent federal law is not controlling, the laws of
the State of Illinois. If a longer minimum notice period is not specified
by applicable federal or Illinois law for the amendments we propose to
make, we may amend this Agreement upon not less than 15 days notice
to you. Unless otherwise provided by law, any notice of changed terms
may be included on or with the monthly statement of your Account and,
the notice period will begin to run when we mail or deliver the notice to
you. If a notice of an amendment gives you the opportunity to reject the
amendment, and if you reject the amendment in the manner provided
in the notice, we may terminate your right to receive additional credit
and may require you to return all credit devices as a condition of your
rejection of the amendment. If the amendment so provides, and subject
to the requirements of applicable law, the amended Agreement (including
any increased rate or amount of interest or other finance charge and other
increased charges and fees) will apply to both existing and new balances
of your Account, including, subject to the provisions of the notice of
change in terms, all Purchases, Cash Advances and Balance Transfers
after the effective date of the amendment. Any letter, payment instrument
or other communication you direct to us with the intent to amend this
Agreement must be sent to us in writing at: State Farm Bank, PO Box
2326, Bloomington, Illinois 61702-2326. If any such payment instrument
is received at any other address, we may accept the payment instrument,
which will not constitute consideration, and no amendment to the
Agreement shall have been effected. This Agreement may be amended
only by a writing originated by us and sent to you or a written amendment
signed by one of our authorized representatives.
We may replace your Card with another credit card at any time.

Communications Concerning Disputed Debts
Any payment instrument you send us for less than the full balance due
that is marked “paid in full” or similar notation, or that you otherwise
tender in full satisfaction of a disputed amount, must be sent to State
Farm Bank, PO Box 2326, Bloomington, Illinois 61702-2326. We reserve
all our rights regarding such instruments. For example, if it is determined
there is no valid dispute or if any such instrument is received at any
other address, we may accept the instrument and you will still owe any
remaining balance. Or, we may refuse to accept any such instrument
by returning it to you, not cashing it, or destroying it. Satisfaction of
your debt for less than the full amount due requires a written agreement,
signed by one of our authorized representatives.
Change of Name or Mailing Address
You must notify us immediately of any change of your name or mailing
address from that shown on your latest monthly statement. The back of
your monthly statement contains a form you may use for this purpose.
Assignment
We may at any time, and without notice to you, assign your Account, any
sums due on your Account, this Agreement, and our rights or obligations
under your Account and this Agreement to any person or entity. The
person or entity to whom we make any such assignment shall be entitled
to all of our rights under this Agreement, to the extent assigned. You may
not assign your rights under this Agreement.
Unauthorized Use of Your Account
If you notice the loss or theft of your credit card or a possible unauthorized
use of your card, you should write to us immediately at: State Farm Bank,
P.O. Box 94, Deposit, New York 13754-0094, or call us at 877-734-8472.
You will not be liable for any unauthorized use that occurs after you notify
us. You may, however, be liable for unauthorized use that occurs before
your notice to us. In any case, your liability will not exceed $50.
Please sign your Card immediately after you receive it. Please safeguard
your Card like you would if it were cash. Do not disclose your PIN to
anyone else.
Monitoring Telephone Conversations
You consent to and authorize us, any of our affiliates, and our marketing
associates to monitor and/or record (unless prohibited by law) any of your
telephone conversations with our representatives or the representatives
of any of such companies.
Information Gathering and Sharing
Please refer to the State Farm® “Notice of Privacy Policy” for our
policies on collecting, using, securing, and sharing nonpublic personal
information. Additional copies of our “Notice of Privacy Policy” are
available by calling us toll-free at 877-SF4-BANK (877-734-2265), on
our website (statefarm.com®), or from your local State Farm agent.
CREDIT REPORTING: State Farm Bank may report information about your
account to credit bureaus, including negative information. Late payments,
missed payments, or other defaults on your account may be reflected in
your credit report. You authorize State Farm Bank to obtain consumer
reports about you until the balance is paid in full and the account is
closed.
DISPUTING ACCOUNT INFORMATION REPORTED TO CREDIT
BUREAUS: We furnish information about your account to credit bureaus.
You have the right to dispute the accuracy of the information reported by
writing to us at: State Farm Bank, F.S.B., ATTN: Credit Reporting, P.O. Box
2313, Bloomington, IL 61702-2313.
Governing Law
This Agreement, including, without limitation, the interest to be charged,
is governed by Federal law and to the extent Federal law is not controlling,
by the laws of the State of Illinois without regard to its conflict of laws
principles.
Severability; No Waivers
If any part of this Agreement is found to be invalid, the rest remains
effective. Any failure or delay by us in exercising any of our rights or
remedies under this Agreement or under applicable law does not mean
that we will not be permitted to exercise those rights or remedies later. We
may accept late payments or partial payments without losing any of our
rights or remedies. You have not waived under this Agreement any of your
rights or our duties under the Illinois Financial Services Development Act.
Transactions with Merchants
Return Policy. If a merchant discloses a policy such as “no returns”,
“no refund”, “no return or credit without receipt”, “as is”, “store credit
only”, or “all sales final”, you will be bound by that policy when you
use your Card or Account to buy goods or services from that merchant.
Reservations. When using your Account to make travel or lodging
reservations, obtain the merchant’s cancellation policy and follow it if
you cancel. If you cancel, obtain the merchant’s cancellation number that
it is required to give you. The merchant may charge you for a cancelled
transaction unless you can provide us with the merchant’s cancellation
number. Recurring Transactions. If you authorize a merchant to charge
your Account for repeat transactions with your Card, you must notify
the merchant when you want to discontinue the repeat transactions or
if your Account is closed or a new Account number is issued by us.
Dispute Assistance. If you disagree with a transaction on your statement
or have a dispute with the merchant as a result of the transaction, you
will provide information or assistance we reasonably request to permit
us to investigate the transaction. Otherwise, you will pay us for any
resulting loss we have (up to the amount of the transaction) unless we are
prohibited by applicable law from holding you liable for our loss. “Your
Billing Rights” controls. If any provision of this paragraph conflicts with
any part of the “Your Billing Rights” section below that is applicable to
the particular transaction, the terms of the “Your Billing Rights” section
will control.

YOUR BILLING RIGHTS
Keep this document for future use.
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement.
If you think there is an error on your statement, write to us at: State Farm
Bank, PO Box 1420, Deposit, New York 13754-1420.
In your letter, give us the following information:
(1) Account information: Your name and Account number.
(2) Dollar Amount: The dollar amount of the suspected error.
(3) Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled,
if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but
if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
(2) Within 90 days of receiving your letter, we must either correct the
error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The charge in question may remain on your statement, and we may
continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date that it is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased
with your credit card, and you have tried in good faith to correct the
problem with the merchant, you may have the right not to pay the
remaining amount due on the purchase.
To use this right, all of the following must be true:
(1) The purchase must have been made in your home state or, within 100
miles of your current mailing address; and the purchase price must
have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or
if we own the company that sold you the goods or services.)
(2) You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at: State Farm Bank, PO Box 1420,
Deposit, New York 13754-1420.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.
Notice for Married Wisconsin Residents. No provision of any marital
property agreement, unilateral statement, or court order applying to
marital property will adversely affect State Farm Bank interests unless
prior to the time credit is granted, State Farm Bank is furnished with a
copy of the agreement, statement or court order, or State Farm Bank has
actual notice of the provision. Married Wisconsin residents must furnish
the name and address of their spouse to State Farm Bank at PO Box 87,
Deposit, New York 13754-0087.
F03-W740-3

